Report No. D-2011-105                 September 19, 2011




             Competition for Interrogation Arm
              Contracts Needs Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contract the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
IA                            Interrogation Arm
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IED                           Improvised Explosive Device
JIEDDO                        Joint Improvised Explosive Device Defeat Organization
JUONS                         Joint Urgent Operational Need Statement
NVESD                         Night Vision and Electronic Sensors Directorate
ONS                           Operational Needs Statement
                                  INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704


                                                                            September 19, 2011

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Competition for Interrogation Arm Contracts Needs Improvement
         (Report No. D-2011-105)

We are providing this report for review and comment. Army contracting and program
officials inappropriately restricted competition in their award of four sole-source contracts
valued at $82.1 million to one source. These officials also inappropriately managed the
Interrogation (IA) as a commercial item when the IA was developed uniquely for military
purposes. We reviewed the Army contracts to procure the IA used on route clearance
vehicles in Iraq and Afghanistan to determine whether the IA acquisition initiative was
contracted and managed in accordance with Federal and Defense acquisition regulations.
This report is the second in a series of reports addressing DoD contracts for countermine
and improvised explosive device defeat systems used in Iraq and Afghanistan. We
considered management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The
Executive Director, Army Contracting Command – Aberdeen Proving Ground, comments
were partially responsive. In addition, we revised Recommendation 2.a to clarify the
actions needed to ensure that there is a contract in place while the contracting officer works on
obtaining the best value. Therefore, we request that the Executive Director provide
additional comments on Recommendation 2.a. by October 19, 2011.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).




                                                Bruce A. Burton
                                                Deputy Assistant Inspector General
                                                Acquisition and Contract Management
Report No. D-2011-105 (Project No. D2010-D000AE-0139.000)                            September 19, 2011

                Results in Brief: Competition for
                Interrogation Arm Contracts Needs
                Improvement
                                                            •	 perform a review of the contracting
What We Did                                                    officers’ actions relating to the
We reviewed the Army’s efforts to procure the                  determination that the IA was a commercial
Interrogation Arm (IA) that is used on route                   item and that a commercial market existed
clearance vehicles in Iraq and Afghanistan to                  and initiate, as appropriate, administrative
determine whether the IA acquisition initiative                actions.
was contracted and managed in accordance with
Federal and Defense acquisition regulations.               Management Comments and
                                                           Our Response
What We Found                                              The Deputy for Acquisition and Systems
Army contracting and program officials                     Management, Office of the Assistant Secretary of
inappropriately restricted competition in their            the Army (Acquisition, Logistics, and
award of four sole-source contracts valued at              Technology) agreed with the recommendation,
$82.1 million to one source. These officials also          and his comments were responsive. The
inappropriately managed the IA as a commercial             Executive Director, Army Contracting
item when the IA was developed uniquely for                Command – Aberdeen Proving Ground, partially
military purposes. This occurred because                   agreed with one recommendation but disagreed
program officials preferred to use a specific              that the IA was not a commercial item. We
contractor, and contracting officials did not              request that the Executive Director provide
perform due diligence in their determination that          additional comments by October 19, 2011.
the IA was a commercial item. As a result, the             Please see the recommendations table on the
Army lost the benefits of competition and may              back of this page.
not have received the best value in its contracts to
meet the need of the warfighter and protect the              Figure. Interrogation Arm Mounted on a 

interest of the DoD.                                                      Husky Vehicle


What We Recommend
We recommend that the Project Manager Close
Combat Systems develop an acquisition strategy
with the Army Contracting Command –
Aberdeen Proving Ground to seek, promote, and
sustain competition for future IA procurement.
We also recommend that the Executive Director,
Army Contracting Command – Aberdeen
Proving Ground:
  •	 Obtain certified cost or pricing data before
                                                             Source: U.S. Army Product Manager Countermine and 

     awarding future delivery orders on contract                        Explosive Ordnance Disposal

     W909MY-10-D-0021 or renegotiate the
     contract in accordance with Federal
     Acquisition Regulation Part 15,
     “Contracting by Negotiation,” and

                                                       i
Report No. D-2011-105 (Project No. D2010-D000AE-0139.000)    September 19, 2011


Recommendations Table

                                        Recommendations       No Additional
           Management
                                       Requiring Comment    Comments Required
Project Manager Close Combat                                       1
Systems
Army Contracting Command –                                         2.b
                                               2.a
Aberdeen Proving Ground

Please provide comments by October 19, 2011.




                                          ii
Table of Contents

Introduction	                                                            1


      Objective                                                          1

      Background                                                         1

      Review of Internal Controls                                        4


Finding. Competition Was Inappropriately Restricted When the 

Interrogation Arm Contracts Were Awarded                                 5


      Sole-Source Approach Used for Interrogation Arm Purchases          5

      Commercial Item Acquisition Strategy Used Was Not Appropriate      9

      Program Office Personnel’s Preference for a Specific Contractor   11 

      No Due Diligence in IA Commercial Item Determination              13 

      Conclusion                                                        14 

      Management Comments on the Finding and Our Response               15 

      Recommendations, Management Comments, and Our Responses           16 


Appendices

      A. 	Scope and Methodology                                         19 

             Prior Coverage                                             20 

      B. Interrogation Arm Urgent Requests, Funding, and Contracting    21 

      C. Timeline of IA Procurements	                                   23 


Glossary 	                                                              24 


Management Comments

      Office of the Assistant Secretary of the Army

           (Acquisition, Logistics, and Technology)                     26 

      U.S. Army Contracting Command 	                                   27 

Introduction
Objective
This report is the second in a series of reports addressing DoD contracts for countermine and
improvised explosive device (IED) defeat systems used in Iraq and Afghanistan. The overall
audit objective was to determine whether DoD procurement efforts for countermine and
improvised explosive device defeat systems used in Iraq and Afghanistan were developed,
awarded, and managed in accordance with Federal and Defense acquisition regulations.
Specifically, we determined whether the Joint Improvised Explosive Device Defeat
Organization (JIEDDO) and Army procurement efforts for the Interrogation Arm (IA) used
on Husky and RG-31 vehicles in Iraq and Afghanistan were contracted and managed in
accordance with Federal and Defense acquisition regulations. We did not review the IA
development. We focused primarily on the Army contracting and management of the IA
acquisition initiative. See Appendix A for a discussion of our scope and methodology and
prior coverage related to the audit objectives.

We performed this audit pursuant to Public Law 110-181, “National Defense Authorization
Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud, and Abuse in
Wartime Contracts and Contracting Processes in Iraq and Afghanistan,” January 28, 2008.
Section 842 requires:
               thorough audits . . . to identify potential waste, fraud, and abuse in the
               performance of (1) Department of Defense contracts, subcontracts, and task
               and delivery orders for the logistical support of coalition forces in Iraq and
               Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
               delivery orders for the performance of security and reconstruction functions
               in Iraq and Afghanistan.

We reviewed contracts W909MY-07-C-0012, W909MY-07-C-0022, W909MY-10-C-0002,
and W909MY-10-D-0021 for countermine and IED defeat devices to support route clearance 1
patrols in Iraq and Afghanistan.

Background
Improvised Explosive Devices
IEDs are the most serious threat to coalition forces in Afghanistan, and as U.S. forces draw
down in Iraq, IEDs still pose a significant threat in Iraq. In FY 2010, IEDs caused more than
10,200 casualties in Iraq and more than 9,100 casualties in Afghanistan. The number of IED
incidents in Afghanistan has risen steadily since 2005, and has doubled from FY 2008 to
FY 2010. IEDs pose a threat because insurgents in Afghanistan mainly use IEDs with simple
designs and technologies made from homemade explosives and other bulk explosives that are
difficult to detect.

Need for Interrogation Arm Capability
Warfighters in theater identified a need for a device that could inspect potential IEDs on the
sides of roads and could be mounted on smaller route clearance vehicles. Existing route

1
  Route clearance is the detection, investigation, marking and reporting, and neutralization of explosive
hazards and other obstacles along a defined route to enable assured mobility for the maneuver commander.
It is a combined arms operation that relies on a reconnaissance of the route to be cleared.


                                                     1

clearance teams use the Buffalo, a mine resistant ambush protected vehicle with a mechanical
arm, to inspect possible IEDs at standoff distances during combat missions in theater.
However, the Buffalo is a larger vehicle and route clearance teams cannot always access
suspected IEDs at a standoff distance. Therefore, warfighters identified a need for a device
that could inspect IEDs and could be mounted on smaller vehicles, such as the Husky and
RG-31.

From March 2006 through September 2007, warfighters submitted four joint urgent
operational need statements (JUONS) to the U.S. Central Command requesting IAs for use on
smaller vehicles in Iraq and Afghanistan. Subsequently, warfighters submitted three Army
operational needs statements (ONS), from December 2008 through January 2010, to
Headquarters, Department of the Army, requesting additional IAs for use in Afghanistan. The
Army Project Manager Close Combat Systems is the program office for the IA acquisition
initiative and designated program management responsibilities to Product Manager
Countermine and Explosive Ordnance Disposal. According to the program office, the IA
acquisition initiative is not a program of record.

Interrogation Arm Acquisition Initiative
The IA is a device that provides standoff protection to warfighters while inspecting suspected
IEDs during missions. Route clearance teams employ the IA on Husky and RG-31 vehicles in
Iraq and Afghanistan. The main IA components are identified in the following figure on an
RG-31 vehicle.

                Figure. Interrogation Arm Mounted on a RG-31 Vehicle




         Source: U.S. Army Product Manager Countermine and Explosive Ordnance Disposal.
      1.	 The crane is hydraulically powered and lightweight.
      2.	 The articulated boom is a 6-meter extension attached to the crane arm. The camera and
          interrogation tool are mounted on it.
      3.	 The camera allows users to identify targets.
      4.	 The interrogation tool is a claw that can dig, pry, and lift objects.
      5.	 The vehicle installation kit mounts the IA onto the route clearance vehicle. The kit is unique to
          each vehicle variant.




                                                    2

Interrogation Arm Development
In August 2005, the Night Vision and Electronic Sensors Directorate (NVESD) 2 submitted a
proposal to the U.S. Army Research, Development, and Engineering Command requesting
$500,000 through the Agile Integration, Demonstration, and Experimentation program 3 to
develop an extendible IED detection arm prototype for the Husky Mine Detection Vehicle.
According to the NVESD Neutralization Branch Chief, NVESD received $500,000 from the
Agile Integration, Demonstration, and Experimentation program to develop the IA and
received an additional $100,000 from JIEDDO to complete development. In the summer
of 2006, NVESD began developing a proof-of-concept prototype of a smaller version of the
Buffalo arm. Force Protection, Inc. 4 purchased a larger Fassi crane from FASCAN
International, Inc. (FASCAN) to produce the Buffalo arm. NVESD chose to use the smaller
Fassi crane to develop the proof-of-concept prototype. The Fassi crane arm is manufactured
in Italy. NVESD worked with FASCAN, the U.S. distributor of the Fassi crane, to develop
the IA and integrate it on RG-31 and Husky vehicles.

Contracts for Interrogation Arm
The Army Contracting Command – Aberdeen Proving Ground 5 (contracting office)
personnel awarded 3 undefinitized contract actions (letter contracts) for 318 IAs to fulfill the
urgent requests and an indefinite-delivery, indefinite-quantity (IDIQ) contract for IAs and
spare parts to FASCAN. See Appendix B for additional information on IA urgent requests,
funding, and contracting.

Full and Open Competition
The Federal Acquisition Regulation (FAR) establishes policies and procedures for all
Executive agency acquisitions. FAR Part 6, “Competition Requirements,” contains guidance
for policies and procedures to promote full and open competition. FAR 6.101, “Policy,”
states that contracting officers should promote and provide for full and open competition in
soliciting offers and awarding Government contracts. FAR Part 7, “Acquisition Planning,”
contains additional guidance for planning and promoting competition. FAR 7.102, “Policy,”
states that agencies should plan and conduct market research to promote and provide for full
and open competition to ensure that the Government meets its needs in the most effective,
economical, and timely manner. The FAR specifies that planning should begin as soon as the
agency need is identified, and that the planner should coordinate with the contracting officer
in all acquisition planning.

FAR Exemption for Other Than Full and Open Competition
The FAR allows for contracting without providing for full and open competition, but the
contracting officer must cite an exemption authority and justify the basis for the exemption in

2
  NVESD is a directorate of Communications-Electronic Research, Development, and Engineering Center,

which is a subordinate organization to U.S. Army Research, Development, and Engineering Command.

NVESD provides engineering support to Product Manger Countermine and Explosive Ordnance Disposal

for developing night vision and other sensor technologies.

3
  The purpose of the Agile Integration, Demonstration, and Experimentation program was to fund 

technology acceleration efforts of selected technologies that have the potential to fill emerging capability

gaps requiring immediate action.

4
  Force Protection, Inc. designs, manufactures, tests, delivers, and supports blast- and mine-protected

vehicles. Force Protection, Inc. manufacturers the Buffalo vehicle and arm.

5
  The contracting office was previously named CECOM Contracting Center – Washington. In 2011, the

named changed to Army Contracting Command – Aberdeen Proving Ground.



                                                      3

writing. FAR 6.301, “Policy,” states that contracting without providing for full and open
competition should not be justified on the basis of a lack of advanced planning. FAR 6.302,
“Circumstances Permitting Other Than Full and Open Competition,” provides the exemption
authorities for contracts awarded without providing for full and open competition.
FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will Satisfy
Agency Requirements,” applies when supplies or services are available from a limited number
of responsible sources. FAR 6.302-2, “Unusual and Compelling Urgency,” applies when the
agency’s need for the supplies or services is of such an unusual and compelling urgency that
the Government would be seriously injured unless the agency is permitted to limit the number
of sources to solicit bids.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a system of internal controls that provides
reasonable assurance that programs are operating as intended and to evaluate the effectiveness
of the controls. We identified internal control weaknesses in the management of the IA
initiative. Specifically, Army contracting and program officials inappropriately restricted
competition when awarding sole-source contracts valued at $82.1 million to one source.
These officials also inappropriately managed the IA as a commercial item when the IA was
developed uniquely for military purposes. We will provide a copy of the report to the senior
officials responsible for internal controls in the Department of the Army.




                                              4

Finding. Competition Was Inappropriately
Restricted When the Interrogation Arm
Contracts Were Awarded
Army contracting and program officials inappropriately restricted competition when
awarding four sole-source contracts valued at $82.1 million to one source. These officials
also inappropriately managed the IA as a commercial item when the IA was developed
uniquely for military purposes. This occurred because program officials preferred to use a
specific contractor, and contracting officials did not perform due diligence in their
determination that the IA was a commercial item. As a result, the Army lost the benefits of
competition and may not have received the best value in its contracts to meet the need of the
warfighter and protect the interest of the DoD.

Sole-Source Approach Used for Interrogation Arm
Purchases
Army contracting and program officials inappropriately restricted competition on four sole-
source contracts valued at $82.1 million awarded to FASCAN. Contracting officials, with
input from the program office, cited FAR 6.302-2, “Unusual and Compelling Urgency,” and
FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will Satisfy
Agency Requirements,” without adequate justification for the sole-source contracts awarded
to FASCAN. The following table identifies the contracts and exemptions used to justify the
sole-source awards.
       Table. FAR Exemption Used to Award Sole-Source Contracts to FASCAN
  Date Statement of                                   Date of Contract          Sole-Source
                           Contract Number
   Urgency Issued                                      Award/Value              Justification
                                                     February 28, 2007/    Unusual and Compelling
    January 8, 2007       W909MY-07-C-0012
                                                        $3.2 million              Urgency
                          W909MY-07-C-0022            August 28, 2007/     Unusual and Compelling
   August 27, 2007
                               Basic                   $18.9 million              Urgency
                          W909MY-07-C-0022              May 1, 2008/       Unusual and Compelling
    March 2, 2008
                          Modification P00007           $0.6 million              Urgency

                                                     December 3, 2009/     Unusual and Compelling
  November 25, 2009       W909MY-10-C-0002
                                                       $10.4 million              Urgency
                                                     September 21, 2010/
                                                                            Only One Responsible
    Not applicable        W909MY-10-D-0021               $49 million
                                                                                  Source
                                                      (contract ceiling)

Unusual and Compelling Urgency Exemption Not Justified
Army contracting officers, with input from the program office, cited the FAR 6.302-2
exemption for three sole-source contracts awarded to FASCAN. Program office personnel
repeatedly requested to use one source for the IA procurement under the unusual and
compelling urgency exemption, and the contracting officers accepted those requests without
adequately justifying the basis for the sole-source decision in the contract documentation.
See Appendix C for a timeline of the repeated IA procurements and elapsed time between the
contracting actions.



                                                5

Response to Urgent Needs Statements
Program office personnel did not act with urgency once they received the funding to procure
the urgent requested IAs by engaging the contracting office. JIEDDO validated 6 the initial
urgent needs for the IA and provided the program office funding in August 2006. The
NVESD Neutralization Branch Chief stated that he waited to engage the contracting office in
the IA acquisition until he was confident that the prototype design would pass testing. Nearly
5 months after JIEDDO funded the urgent need, the Army Project Manager Close Combat
Systems issued a memorandum for U.S. Army CECOM Life Cycle Management Command,
on January 8, 2007, identifying an urgent requirement for 48 IAs. The Statement of Urgency
stated that the requirement would be acquired through a sole-source letter contract to
FASCAN and that a justification and approval memorandum referencing the urgency was
being coordinated. According to the contracting officer, the program office personnel did not
inform the contracting officer about the possibility of contracting for an additional
requirement. Instead, program office personnel presented the requirement as a one-time
procurement. The FAR states that contracting without providing for full and open
competition should not be justified because of a lack of advance planning. By not
coordinating with the contracting officials upon identifying an urgent need, program office
personnel limited the amount of time the contracting officials had to execute contract
planning.

The contracting officer stated that she did not get involved with the IA acquisition until the
program office personnel contacted her in January 2007 with a Statement of Urgency. The
                                           contracting officer did not review the JUONS. She
      The contracting officer did not      accepted the program office’s sole-source approach,
    review the JUONS. She accepted         as presented in the Statement of Urgency, and
     the program office’s sole-source      awarded the first IA sole-source letter contract,
       approach, as presented in the       W909MY-07-C-0012, to FASCAN in
         Statement of Urgency . . .        February 2007. Accordingly, the Special Advocate
for Competition approved the Justification and Approval for Other Than Full and Open
Competition, April 18, 2007, 7 stating that FASCAN was the only source that could meet the
Government’s requirements and that failure to procure these items would result in increased
risk to the warfighter. The justification and approval memorandum stated that market
research was used to obtain competition; however, this was not a true statement because the
market research was related to the development of the IA prototype. No market research was
conducted to support this contract.

Contracting Office Continued to Award Sole-Source Contracts
Program office personnel continued its practice of issuing Statements of Urgency to justify
sole-source letter contracts to FASCAN. On August 27, 2007, the Program Executive Office
Ammunition (PEO Ammunition)8 issued a Statement of Urgency to the contracting office
requesting 118 Husky-mounted IAs. The Statement of Urgency stated that delivery of the
IAs must begin no later than September 30, 2007. The Statement of Urgency also stated that

6
  Validation is the process to review and approve the requirement.

7
  For an urgent contract, the FAR allows the contracting officials to prepare the justification and approval 

memorandum after the contract award.

8
  PEO Ammunition is composed of three project offices. One of the project offices is the Project Manager

Close Combat Systems.





                                                      6

no other vendor could meet the expedited timeline to manufacture, inspect, ship, and install
these complex IED defeat tools for the route clearance teams. The second Statement of
Urgency was issued just 7 months after the first Statement of Urgency. Subsequently, on
March 2, 2008, PEO Ammunition issued the third Statement of Urgency to the contracting
office for IAs. PEO Ammunition stated that delivery of these 10 RG-31-mounted IAs must
begin no later than April 30, 2008. The third Statement of Urgency was issued just 6 months
after the second Statement of Urgency. On November 25, 2009, PEO Ammunition issued the
fourth Statement of Urgency to the contracting office for IAs, stating that delivery of the
142 IAs must begin no later than November 2009. The contracting officer awarded the
contract 8 days later on December 3, 2009. In each instance, PEO Ammunition cited
FAR 6.302-2 as the justification for awarding the letter contracts as sole-source, stating that
only FASCAN could manufacture, inspect, and deliver IAs to satisfy the delivery schedules
of the urgent requirements, and failure to execute these expedited acquisitions would increase
the risk to the soldiers.

Recurring use of Statements of Urgency showed a lack of planning. According to program
office personnel, they were aware of potential requirements for 57 IAs identified in JUONS
CC-0087 as of August 2006. They issued the Statement of Urgency for these IAs in
August 2007. The contracting officer accepted the program office’s sole-source approach
described in the Statements of Urgency to award contract W909MY-07-C-0022 and a
modification for additional IAs. The contracting officer justified her approach in the
justification and approval memoranda by stating that market research yielded no other
sources and that only the FASCAN IA would meet the urgent time frames. However, the
justification and approval memoranda for both contract W909MY-07-C-0022 and
modification referred to the same NVESD research that was used to design and develop the
IA in 2006. The NVESD representatives stated that they never conducted market research
specific to the IA contracts.

The same procurement practice continued for the third letter contract, W909MY-10-C-0002.
The program office personnel stated that they knew about the requirement for additional
systems as early as April 2009 when they received initial funding but did not issue a
Statement of Urgency to the contracting officials until November 2009. The contracting
officer justified the third sole-source contract with a justification and approval memorandum
on January 5, 2010. The justification and approval memorandum stated:
               No additional sources were identified as a result of these efforts [market
               survey in June 2009 and symposiums] that could meet the Government’s
               requirements without substantial development efforts, duplication of costs,
               and delivery delays. Based on this market research, the Government’s
               technical experts determined that only FASCAN could provide the required
               items in time to meet the Government’s urgent requirements.
The market survey referred to in the justification and approval memorandum to support
contract W909MY-10-C-0002 identified several crane options but did not promote
competition for the IA as a collective item. However, NVESD wanted to continue with
FASCAN. The market survey stated:
               There are several cranes on the market that could potentially be
               modified to meet the current Interrogation Arm requirement. All
               would require modification and follow on testing, logistical support
               development and documentation prior to fielding. The currently fielded
               IA and associated tools represent a 4 year cooperative effort between




                                                   7

                 the Government and the current vendor [FASCAN] as well as an
                 investment of approximately 26 M [million] dollars. The result has been
                 a system that is safe, effective and suitable for use in Iraq and Afghanistan.
                 Despite the availability of several potential candidate replacements for
                 the current fielded IA, it is recommended that Fascan [sic], the current
                 vendor, continue to be used as the sole source for future Interrogation
                 Arms. [emphasis added]
As previously noted, other viable crane sources existed to meet the IA requirement; however,
the program office previously worked with FASCAN on the IA to accommodate a new
vehicle variant. The contracting office awarded the contract in December 2009.

Only One Responsible Source Exemption Not Justified
In September 2010, the contracting officer awarded a fourth sole-source contract to
FASCAN. She cited FAR 6.302-1 in the justification and approval memorandum and stated
that only one responsible source will satisfy requirements because FASCAN is the exclusive
U.S. distributor of the Fassi crane, as well as the spare parts for the Fassi crane. Although
FASCAN is the only U.S. distributor of the Fassi crane, other vendors could manufacture the
IA similar to how Force Protection uses the Fassi crane to manufacture the Buffalo arm.
Therefore, being the distributor of the Fassi crane did not equate to being the only responsible
source of the IA. The contracting officer also stated that this exemption was based on
responses received from a sources sought notice issued in December 2009 to identify
potential sources for IAs and spare parts. However, the sources sought notice did not
promote competition because it limited the items sought to non-developmental 9 IAs. The
contracting officer justified the limitation of the sources sought notice to non-developmental
IAs because program office personnel did not want to assume additional risk and delay for
another contractor to design and engineer an IA.

One source that responded to the sources sought notice indicated that it did not have a non-
developmental item to offer but could design, engineer, and build an IA. Program office
personnel determined that a developmental item was not a viable solution because it required
development. Therefore, the Program Office personnel recommended that contracting
officials award another sole-source contract to FASCAN. Specifically, NVESD personnel’s
evaluation of the responses to the sources sought notice stated:
                 Although they [the other contractor] demonstrated a detailed history of
                 engineering accomplishments, they do not meet the Army’s criterion of a
                 readily available non-developmental Interrogation Arm system . . . Based
                 on the results of the market research, only FASCAN International Inc., can
                 meet all of the Army’s performance requirements, delivery, and sustain the
                 systems in the required schedule at a supportable cost.
The contracting officer accepted the program office’s recommendation and justified the
sole-source contract W909MY-10-D-0021 to FASCAN by stating in the justification and
approval memorandum that FASCAN was the only source that could provide IAs and IA
spare parts. The Army awarded four contracts in 3 ½ years for the IA. This shows poor
planning.

9
 FAR 2.101 defines a non-developmental item as any previously developed item of supply used
exclusively for Government purposes or any item that requires only minor modification or modifications
customarily available in the commercial marketplace to meet the requirements of the procuring department
or agency.




                                                       8

Commercial Item Acquisition Strategy Used Was Not
Appropriate
Army program and contracting officials inappropriately managed the IA as a commercial
item. Contracting officials did not adequately justify that the IA was a commercial item for
the four contracts. A commercial item acquisition strategy was not appropriate for the IA
because the IA was developed uniquely for military purposes, and no commercial market
existed for the IA.

Federal and Defense Commercial Item Regulations
FAR Part 12, “Acquisition of Commercial Items,” contains special requirements intended to
more closely resemble those customarily used in the commercial marketplace for proper
planning, solicitation, evaluation, and award of contracts for commercial items. FAR 12.102,
“Applicability,” states that FAR Part 12 should be used for the acquisition of supplies or
services that meet the FAR 2.101 definition of commercial items. The Defense Federal
Acquisition Regulation Supplement (DFARS) 212.102, “Applicability,” states that when
using FAR Part 12 procedures for acquisitions valued at more than $1 million, the
contracting officer should determine in writing that the acquisition meets the commercial
item definition in FAR 2.101.

In addition, a commercial item classification affects price reasonableness determinations.
FAR 15.403-3, “Requiring Data Other Than Certified Cost or Pricing Data,” states that for a
commercial item, the contracting officer is required to obtain adequate data on the price for
which the same item or similar items have been sold to determine the reasonableness of its
price. The FAR prohibits obtaining certified cost or pricing data for commercial items with
the expectation that the competitive forces of the marketplace will establish a fair and
reasonable price.

IA as a Military-Unique Item
NVESD, the program office’s technical representative, worked with FASCAN to develop the
IA as a military-unique item. NVESD personnel developed the IA to provide warfighters in
theater with the capability to inspect suspected IEDs from smaller route clearance vehicles.
A commercial market did not exist for this capability; it was developed as a military-unique
item. Without a commercial marketplace established for the IA at the time of these
procurements, FAR Part 12 provisions were not appropriate for use on the IA acquisition
initiative. The justification and approval memorandum, dated April 18, 2007, stated that no
previous procurement history existed. No market, commercial or otherwise, existed for the
IA before the award of the first IA procurement contract W909MY-07-C-0012.

Contracting Office Did Not Adequately Justify the IA as a
Commercial Item
The contracting officer for the first two procurements stated that she based her IA
commercial item determination on input from the program office and NVESD personnel’s




                                              9

knowledge of the IA. In all four of the determination and findings, 10 the contracting officers
stated that the modifications were minor modifications made to an existing crane to meet
Army requirements. To qualify as a commercial item with minor modifications, FAR 2.101
states that the item needs to retain a predominance of nongovernmental functions or essential
physical characteristics. Although the contracting officers included this statement in the
determination and findings, they did not explain or quantify the modifications to the crane in
terms of parts or pricing, or explain how the nongovernmental functions and physical
characteristics had not changed.

The contracting officers did not adequately justify the IA as a commercial item in the four
   The contracting officers did not     determination and findings. For all four IA
     adequately justify the IA as a     commercial item determination and findings,
      commercial item in the four       contracting  officers cited FAR 2.101(1)(i),
      determination and findings.       “Definitions-Commercial     Item,” as justification for
                                        considering the IA as a commercial item and stated
that the cranes, crane extensions, cameras, and associated spare parts were generally sold to
the public. FAR 2.101(1)(i) defines a commercial item as:
                  Any item, other than real property, that is of a type customarily used by the
                  general public or by non-governmental entities for purposes other than
                  governmental purposes, and has been sold, leased, or licensed to the
                  general public . . .

The IA is composed of several components, some of which are commercial items; however,
the IA as a collective item does not meet the commercial item definition. Contracting
officers did not obtain evidence to prove that the IA system had been sold to the general
public or nongovernmental entities and did not determine whether there was a commercial
market for the IA system. FAR 2.101(4) states that:
                  any combination of items meeting the commercial item requirements that
                  are of a type customarily combined and sold in combination to the
                  general public. [emphasis added]

Solely combining commercial items into one system is not sufficient to meet the commercial
item definition; the combination of items must be common and sold to the general public.
However, there is no commercial market for the IA system. NVESD personnel worked
exclusively with FASCAN to develop the IA, and the IA system was not produced until
January 2007.

Additionally, the contracting officers’ justification for considering the IA as a commercial
item stated that modifications made to the cranes were minor and did not significantly alter
the nongovernmental function or essential physical characteristics of the item.
FAR 2.101(3)(ii), “Commercial Item,” states:
                  Minor modifications of a type not customarily available in the commercial
                  marketplace made to meet Federal Government requirements. Minor


10
  FAR subpart 1.7, “Determination and Findings,” states that a determination and findings is a form of
written approval that an authorized official is required by statute or regulation to prepare as a prerequisite to
taking certain contract actions. The determination is a conclusion or decision supported by the findings.
The findings are statements of fact or rationale essential to support the determination and must cover each
requirement of the statute or regulation.




                                                      10 

               modifications means modifications that do not significantly alter the
               nongovernmental function or essential physical characteristics of an item or
               component, or change the purpose of a process. Factors to be considered in
               determining whether a modification is minor include the value and size of
               the modification and the comparative value and size of the final product.
               Dollar values and percentages may be used as guideposts, but are not
               conclusive evidence that a modification is minor.

The determination and findings refers to minor modification of the crane, not the IA as a
collective item. Program office personnel stated that transforming the crane into an IA
system required extensive work. According to NVESD personnel, the Army invested
$600,000 to develop the first IA and continued performing upgrades on subsequent contracts.
The Fassi crane was fitted with an interrogation tool, an articulated boom, a camera, and
lights. In addition, the IA requires a mounting kit specific to the military vehicle it is
attached to. Furthermore, according to the program office project lead, the integration of the
IA on military vehicles was not a simple, bolt-on solution. The contracting officer’s
inappropriate determination that the IA was a commercial item impacted the acquisition
strategy used to procure the IA.

Program Office Personnel’s Preference for a Specific
Contractor
Program office personnel preferred to use a specific contractor to procure the IA.
Specifically, the program office cited FASCAN in contract documentation to support sole-
source contracts and identified FASCAN as the only source without performing adequate
market research. They included brand names in the statements of work specific to
FASCAN’s IA and continued to request FASCAN as the desired vendor while not taking
action to promote competition for future IA requirements.

IA Contract Documentation Specified FASCAN
The program office specified FASCAN in contract documentation to support the IA sole-
source contracts. The program office issued four Statements of Urgency to support the sole-
source letter contracts to FASCAN. In each of these Statements of Urgency, the program
office identified FASCAN as the only source that could meet the Government’s requirements
without additional integration, testing, or safety confirmation. The contracting officers used
information provided by the program office to issue five justification and approval
memoranda that determined only FASCAN could meet the Government’s requirements for
IAs. All of the five justification and approval memoranda stated that the Government had
invested time and money in FASCAN and that working with another source would duplicate
efforts. In addition, the justification and approval memoranda specified duplication of costs
ranging from $500,000 to $1.2 million and additional delays between 6 months to 18 months
to develop, produce, and test a different IA system. For approximately 3 years, the program
office requested FASCAN as the vendor for the IA while program office personnel continued
to work exclusively with FASCAN on IA development. As a result, the program office
demonstrated a preference for FASCAN as the contractor for the IA.

Adequate Market Research Not Conducted
Program office personnel identified FASCAN as the only source that could meet the
warfighter’s requirement without performing adequate market research. The FAR requires
agencies to conduct market research before developing new requirements documents.




                                                   11 

NVESD representatives stated that NVESD personnel did not conduct market research to
support the first three IA contracts. Rather, NVESD personnel searched the internet and
attended industry conferences to find components to build a proof-of-concept prototype. The
NVESD Neutralization Branch Chief stated that he provided a summary of those informal
research efforts to the contracting and program offices; however, those officials did not
request that he conduct any further market research. In a subsequent discussion with
program office personnel and contracting officers, they clarified that when NVESD
representatives stated that they did not conduct market research for the IA contracts, they
meant that a formal sources sought notice was not issued through the Federal Business
Opportunities page. In addition, the contracting officer stated that the program office had
already determined that FASCAN was the only source for the IA and, because of the urgency
of the acquisition, she did not require formal market research; instead, she relied on NVESD
research. The market research NVESD conducted was not in support of the IA contracts;
instead, it identified components for the IA prototype.

In June 2009, before the third IA contract W909MY-10-C-0002 was awarded, NVESD
personnel conducted a market survey to identify sources of commercially available cranes
that could be modified into an IA. NVESD concluded that there were several cranes on the
market that could be modified to meet the current IA requirement. However, NVESD
determined that the other cranes would require modification, testing, logistical support
development, and documentation before fielding. As a result, NVESD recommended that
FASCAN be used for future IA procurements despite the availability of several potential
candidate replacements for currently fielded IAs.

In December 2009, the contracting officer issued a sources sought notice to inform industry
of the IA requirement to support the IDIQ contract W909MY-10-D-0021. The sources
sought notice restricted the IA requirement to a non-developmental item. Two sources
responded to the notice, FASCAN and another engineering firm. NVESD representatives
disqualified the engineering firm because its solution required development; however,
NVESD spent the previous 3 years working with FASCAN to develop the IA. In limiting the
sources to non-developmental items, program office personnel and contracting officials
circumvented the requirement to promote full and open competition. Therefore, the
contracting office should obtain certified cost or pricing data from FASCAN before awarding
future delivery orders on contract W909MY-10-D-0021 or renegotiate the contract in
accordance with FAR Part 15, “Contracting by Negotiation.”

Brand Names Specified
FAR 11.105, “Items Peculiar to One Manufacturer,” states that brand names should be used
only if the brand is essential to the Government’s requirements and market research indicates
other companies’ similar products do not meet or cannot be modified to meet agency’s needs.
Program office personnel consistently used brand names in their statements of work
describing the Interrogation Arm; however, they did not always have market research to
support this distinction.

Program Office Did Not Consider Future IA Requirements
Program office personnel did not develop an acquisition strategy promoting competition to
plan for future IA requirements. According to the contracting officer, the program office
personnel presented the first three IA requirements as urgent, one-time buys. The program




                                             12 

office did not have an acquisition strategy until December 2007. The acquisition strategy did
not include a contract approach to promote competition for IA procurements or anticipate
future requirements, despite stating that the IA is part of the route clearance family of
systems. Program office personnel should have included the contracting officers when
developing their acquisition strategy. They also should have informed the contracting
officers of the potential for future IA requirements to ensure that the contracting officers
obtained the benefits of competition over the course of the IA acquisition. The program
manager should have developed an acquisition strategy that promoted competition. Without
promoting competition, FASCAN became the only available source of the IA. Therefore, for
future IA procurements, the program office in coordination with the contracting office should
develop an acquisition strategy that will seek, promote, and sustain competition.

No Due Diligence in IA Commercial Item Determination
Contracting officers did not exercise due diligence when making their determination that the
                                             IA was a commercial item. They procured the
  Furthermore, contracting officers did      IA using a commercial item strategy without
    not obtain prior sales information       considering whether the IA was truly commercial
       sufficient to support IA price        in nature and whether a commercial marketplace
     reasonableness determinations.          existed to generate favorable pricing.
Furthermore, contracting officers did not obtain prior sales information sufficient to support
IA price reasonableness determinations.

In making the determination that the IA was a commercial item, contracting officers relied on
program office personnel’s description of the IA. Specifically, the contracting officers stated
that based on their discussions with program officials, they determined the IA was a
commercial item because the modifications to the Fassi crane were minor. However,
contracting officers did not evaluate the minor modifications that were made to the crane and
other commercial components in terms of pricing. Establishing the extent of modifications to
IA commercial components is important for justifying the item under the FAR definition of a
modified commercial item and for collecting the correct type of information required by FAR
to determine a fair and reasonable price. 11 When a proper commercial item determination is
not made, it impacts the price reasonableness determination.

According to the FAR Part 10, “Market Research,” and the Under Secretary of Defense for
Acquisition, Technology, and Logistics Commercial Item Handbook, November 2001;
market research and analysis provide the basis as to whether the Government’s requirements
for an acquisition can be met by a commercial item. Contracting officers did not conduct
their own market research to determine whether a commercial sales history existed for the IA
or whether the IA was sold to the general public. Instead, they accepted research that
NVESD personnel conducted during the IA prototype development. This research did not
satisfy FAR market research requirements. The Army Federal Acquisition Regulation
Supplement 5110, “Market Research,” states that requirements personnel and contracting
officers must work together as a team to gather market data needed to make decisions.

11
  FAR 15.403-1, “Prohibition on Obtaining Certified Cost or Pricing Data,” includes a provision for
modified commercial items that states [minor] modifications of a commercial item are not exempt from the
requirement for submission of certified cost or pricing data…if the total price of all such modifications
under a particular contract action exceeds the greater of the threshold for obtaining certified cost or pricing
data [$700,000] or 5 percent of the total price of the contract at the time of contract award.




                                                      13 

Contracting officers did not obtain any market data when making the IA commercial item
determination. Specifically, contracting officers stated that they did not look for a pricing
history of the IA because FASCAN was the only source of the IA. Contracting officers
should have sought to obtain IA pricing information from FASCAN’s nongovernmental
customers to determine whether a commercial market existed for the IA. Because the
contracting officers did not use due diligence to determine that the IA was a commercial item
or ensure that a commercial market existed, the Executive Director, Army Contracting
Command-Aberdeen Proving Ground, should review the contracting officers’ actions and, if
appropriate, take administrative actions.

When the contracting officers were classifying the IA as a commercial item, they were
required by FAR 15.403-3, “Requiring Data Other Than Certified Cost or Pricing Data,” to
conduct a price analysis to determine whether the price was fair and reasonable. DFARS
Procedures, Guidance, and Information provides additional guidance and states that when
cost or pricing data are not required, contracting officers must obtain “information other than
cost or pricing data” or whatever information is necessary to determine the reasonableness of
the price. It further states that the contracting officer must determine whether the prior sales
information is sufficient for determining that prices are fair and reasonable. Specifically,
DFARS states that sales data must be comparable to the quantities of the product proposed.
It states that if the sales information is not sufficient, additional information must be
obtained, including cost information, if necessary.

Contracting officers collected information from FASCAN in the form of quotes, invoices, or
price lists to support IA price reasonableness determinations for the IA as a commercial item.
The contracting officers stated that they obtained information from FASCAN because there
were no alternate sources to gain information other than cost or pricing data on the IA
because FASCAN was the only source. Despite recognizing that the IA was composed of
commercial items, contracting officers never established what components of the IA were
sold to the general public. Contracting officers stated they did not research the sales of the
commercial components of the IA from Government schedules or sources other than the
contractor to understand the commercial market and establish price histories of these items.
Instead, they relied on FASCAN’s submitted information to establish a price. Having other
sources of information would have strengthened the Army’s position for negotiating a fair
and reasonable price.

Conclusion
When the Army awarded multiple sole-source IA contracts to the same contractor without
promoting competition and inappropriately procured the IA as a commercial item, it lost the
benefits of competition and relinquished its ability to ensure a fair and reasonable price.

As cited in the Director of Defense Procurement and Policy Memorandum, “Competition in
Department of Defense Acquisition,” September 14, 2009, competition is the cornerstone of
our acquisition process, and the benefits are well established. The President’s Memorandum
on Government Contracting, March 4, 2009, reinforces the importance of striving for an open
and competitive process as an overriding obligation to American taxpayers and of the need to
place greater emphasis on achieving competition in our procurements. According to the
President’s memorandum, competition reduces the risk that taxpayer funds are spent on
contracts that are wasteful, inefficient, subject to misuse, or otherwise not well-designed to




                                               14 

serve the needs of the Federal Government or the interests of the American taxpayer.
Because the Army procured the IA without providing for full and open competition, the
Army may not have received the best value in its contracts to meet the needs of the
warfighter and protect the interests of the DoD.

Because the IA is not a commercial item, it would have been prudent for contracting officers
to gather sufficient cost or pricing data for subsequent IA procurements to ensure that the
Army received a fair and reasonable price. When the contracting officers determined that the
IA was a commercial item, they relinquished the Army’s right to obtain certified cost or
pricing data. Without certified cost or pricing data, contracting officials were at a
disadvantage when negotiating a fair and reasonable price.

Contracting officers only relied on cost or pricing data from FASCAN in the form of Web
site information, invoices, and contractor-submitted price lists to negotiate a fair and
reasonable price for the IA. Contracting officers also used a Defense Contract Audit Agency
audit conducted on the first IA contract W909MY-07-C-0012 to determine price
reasonableness for the second, third, and fourth IA contracts without obtaining additional
Defense Contract Audit Agency assistance. Before definitizing the IA letter contracts,
contracting officers did not obtain quantity discounts nor did they obtain updated cost
information for the work performed to include actual costs incurred. FASCAN completed at
least 50 percent of the IA systems before each of the letter contracts was definitized.

Although program office personnel did not act with urgency on receiving the validated urgent
needs statements by engaging the contracting office, we do not believe an accountability
recommendation for the program office would be useful. Recommendation 1 calls for the
program office to work with the contracting office to achieve competition on future IA
acquisitions. In addition, the project lead engineer who worked on the IA contracts is no
longer with the program.

Management Comments on the Finding and Our
Response
Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments
The Deputy for Acquisition and Systems Management, Office of the Assistant Secretary of
the Army (Acquisition, Logistics, and Technology), responded for Project Manager Close
Combat Systems. The Deputy for Acquisition and Systems Management stated that the
Army agreed that the practice of issuing multiple Statements of Urgency was suboptimal but
that the approach was based primarily on when the Army received the JUONS and ONS from
the warfighter, not from a lack of advanced planning.

Our Response
We recognize that the first Statement of Urgency was for the first two JUONS. The two
JUONS were issued in March and April of 2006 and required 72 IAs. JIEDDO validated the
initial urgent needs statement and provided funding to the program office in August 2006. It
was nearly 5 months after JIEDDO funded the urgent need that the program office notified
contracting officials of the requirement. Waiting to engage contracting officials limited the




                                             15 

time available to execute contract planning. Although according to program office personnel
they knew that additional IAs may be needed, they continued to use Statements of Urgency
as a means of obtaining additional IAs sole source from a preferred contractor. There was no
realistic effort made to foster competition in the acquisition of IAs.

Recommendations, Management Comments, and Our
Responses
Revised Recommendation
As a result of Army comments to recommendations in a draft of this report, we revised draft
Recommendation 2.a to clarify the actions needed to ensure that there is a contract in place
to obtain the IAs that are crucial to the route clearance mission while the contracting officer
works on obtaining the best value.

1. We recommend that the Project Manager Close Combat Systems develop an
acquisition strategy with the Army Contracting Command – Aberdeen Proving
Ground to seek, promote, and sustain competition for future Interrogation Arm
procurement.

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments
The Deputy for Acquisition and Systems Management agreed and stated that the Product
Manager Countermine and Explosive Ordnance Disposal Division that reports to the Project
Manager Close Combat Systems always strives to seek, promote, and sustain competition for
all products that it manages. He stated that for any future IA procurements, the program
office would seek to use competitive procurements in accordance with FAR Part 6,
“Competition Requirements,” while balancing this with the urgency, magnitude of the
requirement, and the system’s fielding, installation, and training. He further stated that, at
this time, there was no known future IA procurement requirement.

Our Response
The Deputy for Acquisition and Systems Management comments are responsive. No further
comments are required.

Army Contracting Command Comments
Although not required to comment, the Executive Director, Army Contracting Command –
Aberdeen Proving Ground, stated that the Product Manager Countermine and Explosive
Ordnance Disposal Division was working with Product Manager Assured Mobility Systems
to develop a program of record for the IA requirement to include the development of a long-
term acquisition strategy. He stated that in the event that this action is transitioned to Product
Manager Assured Mobility Systems, the Army Contracting Command - Warren, (not Army
Contracting Command – Aberdeen Proving Ground) would perform subsequent contract
actions. The Executive Director also stated that if Army Contracting Command – Aberdeen
Proving Ground was the contracting agent for the IA program of record, the acquisition
strategy would be full and open competition, in accordance with FAR Part 12.




                                               16 

Our Response
The contracting agency responsible for the IA program of record should ensure that the
acquisition strategy is full and open competition in accordance with FAR Part 15. The use of
FAR Part 12 provisions is not appropriate for use on the IA acquisition initiative because the
IA is not a commercial item. If the contracting agency uses FAR Part 12, the contracting
officer will not be able to obtain certified cost or pricing data. Without certified cost or
pricing data, the contracting officials are at a disadvantage when negotiating a fair and
reasonable price.

2. We recommend that the Executive Director, Army Contracting Command –
Aberdeen Proving Ground:
       a. Obtain certified cost or pricing data before awarding future delivery orders
on contract W909MY-10-D-0021 or renegotiate the contract in accordance with Federal
Acquisition Regulation Part 15, “Contracting by Negotiation.”

Army Contracting Command Comments
The Executive Director, Army Contracting Command – Aberdeen Proving Ground disagreed
and stated that the contract was properly awarded as a commercial item pursuant to FAR
Part 12. The Executive Director also stated that a detailed price analysis; which included the
analysis of prior prices, current contractor price lists, vendor quotes, and independent internet
searches; was used to negotiate fair and reasonable prices on this IDIQ contract. He stated
that the IAs are crucial to the route clearance mission and the disposition of life-threatening
IEDs in both Iraq and Afghanistan, and must be sustained and maintained to ensure mission
success. In addition, the Executive Director stated that it is imperative that a contract vehicle
be available to support urgent ONS/JUONS requirements as they are validated and funded.
He stated that because contract W909MY-10-0-0021 was properly awarded and fair and
reasonable prices were negotiated, the contract should continue as a vehicle to rapidly fulfill
and sustain this critical wartime capability.

Our Response
The Executive Director, Army Contracting Command – Aberdeen Proving Ground,
comments are nonresponsive. We understand that the IA is composed of several
components, some of which are commercial items; however, the IA as a collective item did
not meet the commercial item definition. NVESD representatives worked with FASCAN to
develop the IA as a military-unique item; therefore, a commercial market did not exist for
this capability. Also, the contracting officers did not conduct their own market research to
determine whether a commercial sales history existed for the IA or whether the IA was sold
to the general public. Without a commercial marketplace established for the IA at the time of
these procurements, FAR Part 12 provisions did not apply to the IA acquisition initiative. In
addition, the contracting officers relied solely on cost or pricing data from FASCAN in the
form of Web site information, invoices, and contractor-submitted price lists to negotiate a fair
and reasonable price for the IA. The contracting officers did not obtain independent pricing
data or data that the contractor certified was current, accurate, and complete. Therefore, we
revised the recommendation and request that the Executive Director, provide additional
comments in response to the final report.




                                               17 

      b. Perform a review of the contracting officers’ actions relating to the
determination that the Interrogation Arm was a commercial item and that a
commercial market existed and initiate, as appropriate, administrative actions.

Army Contracting Command Comments
The Executive Director, Army Contracting Command – Aberdeen Proving Ground, agreed
and conducted two reviews, one by the Army Contracting Command – Aberdeen Proving
Ground, Belvoir Division Chief (formerly CECOM Contracting Center-Washington), and
one by the Army Contracting Command – Aberdeen Proving Ground Commerciality
Advocate. The Executive Director stated that as a result of the reviews, it was determined
that the contracting officers made reasonable determinations that the IA was a commercial
item; therefore, no administrative action against the contracting officers was warranted.
However, the Executive Director stated that the written documentation supporting the
determination was inadequate and should have provided additional details to support that
determination. The Executive Director stated that the Army Contracting Command –
Aberdeen Proving Ground would review commercial item determination policies and
procedures and issue supplemental guidance no later than July 15, 2011.

On July 14, 2011, the Principal Assistant Responsible for Contracts issued Acquisition
Instruction 11-50, “Commerciality Determination,” that provides supplemental guidance on
documenting a commercial item determination and emphasizes the importance of reviewing
the commercial item determination documentation as part of the peer review process. The
Instruction has a template that the contracting officers must use to prepare the Commerciality
Determination. The template requires that specific information be included when
determining whether an acquisition meets the FAR 2.101 definition of a commercial item.
The Commerciality Determination will be reviewed for commercial acquisitions undergoing
a peer review. If the determination and finding does not contain sufficient detail to determine
whether the acquisition meets the FAR 2.101 definition of commercial items, it will not be
approved.

Our Response
Although we disagree with the determination that the IA was a commercial item, the
Executive Director’s comments are responsive. No further comments are required.




                                              18 

Appendix A. Scope and Methodology
We conducted this performance audit from January 2010 through June 2011 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objectives.

We determined whether DoD procurement efforts for countermine and IED defeat systems
used in Iraq and Afghanistan were managed in accordance with Federal and Defense
acquisition regulations. To achieve the audit objective, we judgmentally selected Army
countermine and IED defeat systems contracts based on contract status, system description,
and dollar value. We selected the IA contracts to audit. The Army awarded four IA
contracts between 2007 and 2010. This report addresses the Army contracting and
management of four IA contracts.

Documentation and Information Reviewed
To accomplish the audit objective, we reviewed Federal, DoD, and Army acquisition
guidance. We also reviewed IA program documentation from September 2005 through
September 2010, including joint urgent operational need statements; contract files for
contracts W909MY-07-C-0012, W909MY-07-C-0022, W909MY-10-C-0002, and
W909MY-10-D-0021; test reports; and funding actions. In addition, we reviewed the
information other than cost or pricing data, such as invoices, quotes, and purchase orders
associated with the FASCAN’s proposals for contracts W909MY-07-C-0022,
W909MY-10-C-0002, and W909MY-10-D-0021 to determine whether the prices were fair
and reasonable. We met with representatives from the following organizations and
contractors: JIEDDO; U.S. Army Materiel Command; U.S. Army Research, Development,
and Engineering Command; U.S. Army Communications-Electronics Research,
Development, and Engineering Center, Night Vision and Electronic Sensors Directorate;
Army Contracting Command – Aberdeen Proving Ground; Program Executive Office
Ammunition; Project Manager Close Combat Systems; Product Manager Countermine and
Explosive Ordnance Disposal; Defense Contract Management Agency - Baltimore;
FASCAN; and ManTech International Corporation. In addition, we interviewed personnel
from the 30th Heavy Brigade Combat Team, 3rd Combat Engineer Battalion, 951st Engineer
Company, 4th Engineer Battalion, and the 1st Brigade Combat Team of the 1st Cavalry
Division to obtain their feedback on using the IA in theater.

Use of Computer-Processed Data
We used event histories and program documentation obtained from the U.S. Central
Command Requirements Integration Management database. We did not perform a data
reliability assessment of the computer-processed data because the data were used only to
obtain background information on the IA and not to support our finding, conclusions, or
recommendations. Therefore, using the computer-processed data from the event histories
and program documentation did not affect the reliability of the audit.




                                             19 

Use of Technical Assistance
We obtained assistance from the Quantitative Methods and Analysis Division of the Office of
Inspector General. The Quantitative Methods and Analysis Division selected a random
sample of parts from other than cost or pricing data that the contracting office obtained from
FASCAN for contracts W909MY-07-C-0022, W909MY-10-C-0002, and
W909MY-10-D-0021.

Prior Coverage
During the last 5 years, the Government Accountability Office and the DoD Inspector
General (IG) have issued six reports discussing JIEDDO and IED initiatives. Unrestricted
Government Accountability Office reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-660, “Warfighter Support: Actions Needed to Improve the Joint
Improvised Explosive Device Defeat Organization’s System of Internal Control,” July 1,
2010

GAO Report No. GAO-10-460, “Warfighter Support: Improvements to DoD’s Urgent Needs
Processes Would Enhance Oversight and Expedite Efforts to Meet Critical Warfighter
Needs,” April 30, 2010

GAO Testimony No. GAO-10-186T, “Warfighter Support: Challenges Confronting DoD’s
Ability to Coordinate and Oversee Its Counter-Improvised Explosive Devices Efforts,”
October 29, 2009

GAO Report No. GAO-10-95, “Warfighter Support: Actions Needed to Improve Visibility
and Coordination of DoD’s Counter-Improvised Explosive Device Efforts,” October 29,
2009

GAO Report No. GAO-08-342, “More Transparency Needed over the Financial and Human
Capital Operations of the Joint Improvised Explosive Device Defeat Organization,” March 6,
2008

DoD IG
DoD IG Report No. D-2010-032, “DoD Countermine and Improvised Explosive Device
Defeat Systems Contracts - Husky Mounted Detection System,” December 31, 2009




                                             20 

Appendix B. Interrogation Arm Urgent
Requests, Funding, and Contracting
Warfighters in theater submitted four JUONS and three Army ONS for IAs to support their
route clearance missions in Iraq and Afghanistan. To address the urgent requests, the Army
Contracting Command – Aberdeen Proving Ground contracting officers awarded 3 letter
contracts and modified one of them to procure a total of 318 IAs. They also awarded a 3­
year IDIQ contract, which procured an additional 46 IAs as of March 2011 (see the following
table).




                                            21 

                                              Interrogation Arm Urgent Requests and Contracting Efforts
                       IA Urgent Requests                                                        IA Contracting Actions
                                                                                                                        Contract
            Warfighter          Quantity                      Contract              Contract            Quantity
                                                  Theater                                                               Amount             Funding Source
          Submitted Date        Requested                      Date                 Number              Procured
                                                                                                                      (in millions)
         March 2006
                                     9          Afghanistan
      JUONS CC-0069                                            February
                                                                              W909MY-07-C-0012               48 2           $ 3.2          JIEDDO/REF 3
         April 2006                                              2007
                                     6              Iraq
      JUONS CC-00871
         April 2006
                                     57             Iraq
      JUONS CC-00871                                           August
                                                                              W909MY-07-C-0022               118 4           18.9              JIEDDO
          June 2007                                             2007
                                     56             Iraq
      JUONS CC-0220
       September 2007                                                         W909MY-07-C-0022
                                     10         Afghanistan   May 2008                                       10                 .6             JIEDDO
      JUONS CC-0266                                                           Modification P00007
       December 2008
                                     64         Afghanistan
        ONS 09-7246                                           December
                                                                              W909MY-10-C-0002               142             10.4               Army
         April 2009                                             2009
                                     78         Afghanistan
        ONS 09-8996
        January 2010                                          September
                                    X5          Afghanistan                   W909MY-10-D-00216              46              49.0               Army
       ONS 10-10920                                             2010
22





            Totals                                                                                           364            $82.1
      Notes:

      1
        The April 2006 JUONS requested 63 IAs; however, according to the Product Manager, Product Manager Countermine and Explosive Ordnance 

      Disposal, those systems were procured in 2 separate actions.

      2
          The “Quantity Requested” and the “Quantity Procured” do not match because 33 spare IAs were procured. 

      3
        According to the Deputy Comptroller, JIEDDO, in 2006 when this funding transaction occurred, JIEDDO was a new organization and did not have

      its own appropriation account. As a result, JIEDDO approved the release of funds, and the Rapid Equipping Force (REF) issued the funding. 

      4
          The quantity procured does not coincide with the quantity requested because an additional five IAs were procured for training purposes.

      5
          The total quantity requested is classified.

      6
       Contract W909MY-10-D-0021 was a 3-year IDIQ contract with a $49 million ceiling. As of March 2011, the contracting office awarded 2 delivery

      orders on this contract to procure 46 IA systems, spares, and repair parts.

     Appendix C. Timeline of IA Procurements

23
Glossary
Family of Systems
A family of systems is a set of systems that provides similar capabilities through different
approaches to achieve similar or complementary effects.

Federal Business Opportunities
Federal Business Opportunities is known as FedBizOpps and is the single Government point­
of-entry for Federal Government procurement opportunities over $25,000. Government
buyers are able to publicize their business opportunities by posting information directly to the
FedBizOpps Web site.

Improvised Explosive Device
An improvised explosive device is a device that is placed or fabricated in an improvised
manner using destructive, lethal, noxious, pyrotechnic, or incendiary chemicals. It is
normally devised from nonmilitary components. It is designed to destroy, incapacitate,
harass, or distract.

Joint Urgent Operational Need
A joint urgent operational need is an urgent operational need identified by a combatant
commander involved in an ongoing named operation. The main purpose of a joint urgent
operational need is to identify and subsequently gain Joint Staff validation and resourcing of
a solution, usually within days or weeks, to meet a specific high-priority combatant
commander need. A joint urgent operational need should not involve the development of a
new technology or capability; however, the acceleration of an advanced concept technology
demonstration or minor modification of an existing system to adapt to a new or similar
mission is within the scope of the joint urgent operational need validation and resourcing
process.

Letter Contract
A letter contract is a written preliminary contractual instrument that authorizes the contractor
to begin immediately manufacturing supplies or performing services. The FAR explains that
a letter contract may be used when the Government’s interests demand that the contractor be
given a binding commitment so that work can start immediately, and negotiation of a
definitive contract is not possible in sufficient time to meet the requirement.

Market Research
Market research is a process for gathering data on product characteristics, suppliers’
capabilities, and the business practices that surround them, plus an analysis of that data to
make acquisition decisions.

Operational Needs Statement
Operational needs statements are used to document the urgent need for a nonstandard and or
unprogrammed capability to correct a deficiency or improve a capability that enhances
mission accomplishment. The operational needs statement provides an opportunity for the



                                               24 

operational commander; outside the acquisition, combat development, and training
development communities; to initiate the capability determination process.

Program of Record
A program of record is an acquisition program recorded in the current Future Years Defense
program or as updated from the last Future Years Defense program by approved program
documents. Program documents included the acquisition program baseline, acquisition
strategy, or selected acquisition report.

Prototype
A prototype is an original or model on which a later system or item is formed or based. Early
prototypes may be built and evaluated during the technology development or later in the
engineering and manufacturing development phase. Also, the early prototype could be the
result of a joint capability technology demonstration or advanced technology demonstration
and tested before a low-rate initial production decision. Selected prototyping may continue
after a low-rate initial production decision, as required, to identify and resolve specific design
or manufacturing risks, or in support of evolutionary acquisition

Sources Sought Notice
A sources sought notice is a synopsis posted by a Government agency that states it is seeking
possible sources for a project. It is not a solicitation for work, nor is it a request for
proposals.

Undefinitized Contract Action
An undefinitized contract action is any contract action in which the terms, specifications, or
price are not agreed upon before performance begins. An example of an undefinitized
contract action is a letter contract in which prices are not definitized until negotiation.




                                               25 

Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments




                     Click to add JPEG file




                                    26
U.S. Army Contracting Command Comments





                 Click to add JPEG file




                                27
                           Final Report 

                            Reference





Click to add JPEG file
                         Revised, Page 3 



                         Revised, Page 17





               28
Click to add JPEG file




               29
                           Final Report 

                            Reference





Click to add JPEG file




                         Revised
                         Recommendation,
                         Page 17




               30
Click to add JPEG file




               31
Click to add JPEG file




               32
Click to add JPEG file




               33
